BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Motion for Leave to File and Brief Amici
Curiae for 16 Media Organizations and Advocacy
Groups in Support of Petitioner in 19-1272, Thomas
Christopher Retzlaff v. Jason Lee Van Dyke, was sent
via Two Day Service to the U.S. Supreme Court, and
3 copies were sent via Two Day Service and e-mail to
the following parties listed below, this 8th day of July,
2020:
Daniel Roy Ortiz
University of Virginia School of Law
Supreme Court Litigation Clinic
580 Massie Road
UVA Law School
Charlottesville, VA 22903
(434) 924-3127
dortiz@law.virginia.edu
Counsel for Petitioner
Jason Lee Van Dyke
P.O. Box 2618
Decatur, TX 76234
(940) 305-9242
jasonleevandyke@protonmail.com
Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite l 02

Franklin Square
1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

www.beckergallagher.com

I

Thomas C. Arthur
Counsel of Record
Emory Law School
Supreme Court Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-5792
lawtca@emory.edu

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 8, 2020.

Donna J. wijr
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

,_ 4

pi ,3o cJ0

r Rfl~ KJ. ~

Notary ~blic

~

[seal]

.!

